<html>
<title> - IMPACT OF EPA'S CLEAN POWER PLAN ON STATES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                            IMPACT OF EPA'S
                       CLEAN POWER PLAN ON STATES

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              May 26, 2016

                               __________

                           Serial No. 114-80

                               __________

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov
       
       
       
       
       
       
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-877 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001     
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEVE KNIGHT, California             PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
                                 ------                                

                      Subcommittee on Environment

                 HON. JIM BRIDENSTINE, Oklahoma, Chair
F. JAMES SENSENBRENNER, JR.          SUZANNE BONAMICI, Oregon
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
RANDY WEBER, Texas                   ALAN GRAYSON, Florida
JOHN MOOLENAAR, Michigan             AMI BERA, California
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
GARY PALMER, Alabama                 EDDIE BERNICE JOHNSON, Texas
RALPH LEE ABRAHAM, Louisiana














                            C O N T E N T S

                              May 26, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Jim Bridenstine, Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     4
    Written Statement............................................     6

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Enviorment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................     9

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    12

                               Witnesses:

The Honorable E. Scott Pruitt, Attorney General, State of 
  Oklahoma
    Oral Statement...............................................    14
    Written Statement............................................    17

Ms. Brianne Gorod, Chief Counsel, Constitutional Accountability 
  Center
    Oral Statement...............................................    23
    Written Statement............................................    26

The Honorable Charles McConnell, Executive Director, Energy and 
  Environment Initiative, Rice University
    Oral Statement...............................................    41
    Written Statement............................................    43
Discussion.......................................................    58

             Appendix I: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Minority Member, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    68

Documents submitted by Representative Jim Bridenstine, Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    69

Documents submitted by Representative Mark Takano, Subcommittee 
  on Enviorment, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    88

 
                            IMPACT OF EPA'S
                       CLEAN POWER PLAN ON STATES

                              ----------                              


                         THURSDAY, MAY 26, 2016

                  House of Representatives,
            Subcommittee on Environment and
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 9:36 a.m., in 
Room 2318, Rayburn House Office Building, Hon. Jim Bridenstine 
[Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Bridenstine. The Subcommittee on Environment will 
come to order.
    I want to make sure everybody here is aware we're going to 
have votes probably around 10:00 or 10:15 is the word we're 
getting. So we're going to get to as much of this as possible, 
and then we'll have to break for votes and determine if coming 
back is necessary and appropriate. But we'll make that call as 
we get closer to that time. Sometimes these votes don't happen 
right when they're DD we're expecting them to happen.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Welcome to today's hearing entitled ``Impact of EPA's Clean 
Power Plan on the States.'' I recognize myself for five minutes 
for an opening statement.
    Today's hearing focuses on the impact the Clean Power Plan 
will have on States, and in particular, my home State of 
Oklahoma. We will also examine and discuss the implementation 
and associated economic and legal issues of this rule at the 
national level.
    The Clean Power Plan is not actually about environmental 
protection. Administrator McCarthy stated before this committee 
that the Clean Power Plan is not measured by temperature or 
sea-level impacts. She said, ``It is measured in showing strong 
domestic action, which can actually trigger global action.'' 
Additionally, if it was truly about protecting the environment, 
the EPA would not cherry-pick the science that supports its 
preconceived biases in all of its regulations.
    This hearing comes at a very critical time. Last month, 
President Obama and his Administration committed another 
usurpation of constitutional power when the Secretary of State 
John Kerry signed the U.N. Paris Climate Agreement in New York. 
The Clean Power Plan comprises a large part of how the 
Administration expects the United States to comply with this 
agreement.
    Despite all the facts about why this agreement is a bad 
deal for America, President Obama has ignored Congress and the 
will of the people by choosing to bypass the proper 
constitutional mechanisms for us approving an international 
agreement. Let us be clear. This was a treaty, and the 
President did not submit it for ratification.
    While the United States would be required to sacrifice 
economic growth under this deal, China, India, and the rest of 
the developing world will be building coal-fired power plants 
and emitting carbon at an unprecedented rate. In order for the 
United States to meet its promised reductions, future 
administrations will have to damage more industries such as 
manufacturing, agriculture, and transportation. This has 
ramifications across the entirety of the American economy.
    And the question is what for? For what? We have learned in 
previous hearings that these regulations are all pain with no 
gain. The Clean Power Plan does nothing to avert future 
temperature rise or prevent further sea rise. However, the 
economic costs to Americans will be approximately $29-$39 
billion per year. Electricity prices for consumers in 40 states 
could increase by at least ten percent or more. Prices in 17 of 
those states could increase by at least 17 percent or more. 
That includes my home state of Oklahoma. This is a war on the 
poor and will increase economic inequality across the nation.
    With these facts, I completely agree with a recent 
characterization by one of our witnesses here today, Charles 
McConnell, that the Clean Power Plan as ``ideological mumbo-
jumbo'' and as ``stupid regulations.''
    The Clean Power Plan has serious legal deficiencies. Even 
President Obama's Harvard Law professor, Laurence Tribe, has 
called the plan unconstitutional. Twenty-six states have sued 
the EPA over the rules, citing an overreach of authority under 
the Clean Air Act. This past March in response to these 
lawsuits, the Supreme Court issued a stay of the Clean Power 
Plan, which prevents the EPA from enforcing any of the rule's 
requirements until the lawsuits against it are fully resolved. 
The U.S. Court of Appeals for the DC. Circuit announced that it 
would hear challenges to the Clean Power Plan with hearings 
scheduled for later this September.
    However, despite the Supreme Court's stay of the rule, and 
despite the fact that this plan is in litigation, the EPA has 
been moving forward with a regulatory structure to implement 
the Clean Power Plan. This is outrageous, it is wrong, and I 
find these actions by EPA unacceptable.
    Earlier this month, several of my congressional colleagues 
sent the EPA Administrator McCarthy a letter raising concerns 
about these actions. In particular, the EPA sent a proposal to 
the Office of Management and Budget to implement a Clean Energy 
Incentive Program, a program based off of the Clean Power Plan.
    Further, EPA officials have notified stakeholders that 
compliance dates will not be adjusted in the event the rules 
are upheld. In other words, there is a stay and the compliance 
dates will not be adjusted in the event that the rules are 
upheld. In other words, you have to keep moving forward on your 
plan even though there is a stay, which friends, means that 
there is not a stay even though the courts have said that there 
is a stay. In other words, you better go ahead and begin 
complying.
    This is unacceptable. EPA regulations should always respect 
the sovereignty of the States, especially since it is the 
citizens in each State who bear the brunt of the EPA's rules. I 
am particularly concerned with how this rule will affect the 
hardworking residents of my district in the state of Oklahoma, 
so I'm especially pleased to welcome Attorney General Scott 
Pruitt from Oklahoma. And I want to thank each of our witnesses 
for coming this afternoon, and I look forward to hearing from 
our witnesses.
    And I yield back the balance of my time.
    [The prepared statement of Chairman Bridenstine follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
       Chairman Bridenstine. I now recognize the Ranking Member, 
the gentlewoman from Oregon, for an opening statement.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to all the witnesses for being here today. I offer a 
different perspective.
    The goal of the Clean Power Plan is important and simple: 
cut carbon emissions from the power sector, the largest source 
of greenhouse gas emissions, so we can lessen the effects of 
climate change in every State and on our planet.
    In a Science Committee hearing last fall, Jason Eisdorfer, 
the Utility Program Director of the Oregon Public Utility 
Commission, thoughtfully explained Oregon's efforts to 
implement the Clean Power Plan. Oregon Governor Kate Brown has 
stated that the EPA's Clean Power Plan rule is in the best 
interests of Oregon on many fronts. A healthy environment is 
essential to ensuring the health of Oregonians and protects our 
quality of life for many generations to come.
    Oregon has been proactive in its efforts to reduce 
greenhouse gas emissions. As a former member of the Oregon 
State Legislature, I helped establish some of the State's 
carbon emission reduction goals. For example, in 2007 Oregon 
set a target of reducing statewide emissions by 75 percent by 
2050. We also set a goal of having up to 25 percent of our 
energy generated through renewable sources by 2025. This year, 
Oregon took further action to require 50 percent renewables by 
2040 and a total phase-out of coal-fired electricity by 2035. 
These efforts and others have put Oregon in a position to not 
only meet but surpass its Clean Power Plan carbon reduction 
goal.
    Now, some contend that environmental regulations might harm 
the economy. This certainly has not been the case in Oregon. 
According to the Energy Trust of Oregon, the State has produced 
about 3,200 full-time jobs, added $3.9 billion to the State's 
economy, saved customers $1.9 billion on their energy bills, 
and avoided 14.6 million tons of carbon dioxide, which is 
equivalent to removing 2.5 million cars from the roads for a 
year.
    The Clean Power Plan builds on efforts of States like 
Oregon by creating a unified national approach to our biggest 
environmental challenge but leaving States flexibility. The 
Clean Power Plan represents an opportunity for American 
ingenuity that will allow us to benefit from the much-needed 
transition to a low-carbon economy.
    More than 150 companies now have signed the American 
Business Act on Climate Pledge to demonstrate their support for 
action and a low-carbon sustainable future. We ought to listen.
    Thank you very much again, Mr. Chairman, for this hearing, 
and thank you to all of our witnesses for being here this 
morning. I look forward to your testimony, and I yield back the 
balance of my time.
    [The prepared statement of Ms. Bonamici follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    Chairman Bridenstine. I'd like to thank the gentlewoman 
from Oregon, Ms. Bonamici.
    I now recognize the Chairman of the full committee, my 
friend from Texas, Mr. Smith.
    Chairman Smith. Thank you, Mr. Chairman. I appreciate your 
comments a while ago.
    President Obama submitted costly new power plant 
regulations as the cornerstone of the recently signed Paris 
climate agreement last month at the United Nations. These 
measures will adversely affect our economy and have no 
significant impact on global temperatures by the EPA's own 
admission, so the regulations perpetrate a fraud on the 
American people.
    In Paris, the President pledged that the United States will 
cut its greenhouse gas emissions by 28 percent over the next 
decade and by 80 percent or more by 2050. Again, even if fully 
implemented, it will have no significant impact on global 
warming.
    The U.S. pledge to the U.N. is estimated to prevent only 1/
50 of one degree Celsius temperature rise over the next 85 
years. EPA's own data shows that this regulation would reduce 
sea level rise by only 1/100th of an inch, the thickness of 
three sheets of paper.
    The President's pledge attempts to create an international 
agreement that binds the United States for decades to come, but 
lacks constitutional legitimacy since it has not been ratified 
by the Senate. The agreement not only requires the United 
States to reduce carbon emissions but also compels our country 
to pay billions of dollars to developing nations to reduce 
their carbon emissions. Even if all 196 countries fulfill their 
promised reductions for each year after 2031, it will only 
reduce temperatures by one sixth of a degree Celsius.
    The so-called Clean Power Plan will cost billions of 
dollars, cause financial hardship for American families, and 
diminish the competitiveness of American employers, all with no 
significant benefit.
    This past month, the Energy Information Agency calculated 
that the Clean Power Plan will hit consumers with higher 
electricity rates. The rate increases being forecast by EIA 
will have real economic consequences and place a needless 
burden, especially on low-income families.
    The President's Power Plan is nothing more than a power 
grab. A majority of Congress disapproved of the Clean Power 
Plan through the Congressional Review Act. And the Governors of 
most states are challenging it in court.
    Meanwhile, the President attempts to justify his actions 
with scare tactics, worst-case scenarios and biased data. 
Statements by President Obama and others that attempt to link 
extreme weather events to climate change are simply unfounded. 
The lack of evidence is clear: no increased numbers of 
tornadoes, no increased hurricanes, no increased droughts or 
floods.
    The United Nation's Intergovernmental Panel on Climate 
Change found that there is ``low confidence'' that drought has 
increased in intensity or duration. The same lack of evidence 
can be found in the IPCC reports for almost every type of 
extreme weather. The Administration's alarmism is not good 
science and intentionally misleads the American people.
    The President's signed Paris pledge will increase 
electricity costs, ration energy, and slow economic growth. It 
ignores good science and only seeks to advance a partisan 
political agenda.
    As we will hear today, the President's so-called Clean 
Power Plan is a bad deal for the American economy, and would 
produce no substantive environmental benefits.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    Chairman Bridenstine. I'd like to thank the Chairman of the 
full committee from Texas, Mr. Smith, for his comments.
    Let me introduce our witnesses. Our first witness today is 
The Hon. E. Scott Pruitt, Attorney General from my home state, 
the great state of Oklahoma. Thank you for being here. Attorney 
General Pruitt received his bachelor's degrees in political 
science and communications from Georgetown University and his 
law degree from the University of Tulsa.
    Our next witness today is Ms. Brianne Gorod, Chief Counsel 
of the Constitutional Accountability Center. Ms. Gorod received 
her bachelor's and master's degrees from Emory University and 
her law degree from Yale.
    Our final witness today is The Hon. Charles McConnell, 
Executive Director for the Energy and Environment Initiative at 
Rice University, my alma mater, and former Assistant Secretary 
of Energy at the U.S. Department of Energy. Mr. McConnell 
received his bachelor's degree in chemical engineering from 
Carnegie Mellon and his MBA in finance from Cleveland State 
University.
    In order to allow time for discussion, please limit your 
testimony to five minutes. Your entire written statement will 
be made a part of the record.
    I now recognize Attorney General Scott Pruitt for five 
minutes to present his testimony. You are recognized.

             TESTIMONY OF THE HON. E. SCOTT PRUITT,

              ATTORNEY GENERAL, STATE OF OKLAHOMA

    Mr. Pruitt. Well, good morning, Chairman Bridenstine, 
Ranking Member Bonamici, and Members of the Subcommittee. I 
thank you for the invitation to discuss the legality of the 
Clean Power Plan with you today.
    And the Clean Power Plan represents an extraordinary moment 
in our constitutional history. It's extraordinary in scope, 
extraordinary in cost, and extraordinary in its intrusion into 
the sovereign power of the States, and all done not by this 
body but rather by regulatory fiat.
    I want to say at the outset, however, that I believe the 
EPA has an important role to play in our Republican form of 
government. There are clearly air and water quality issues that 
cross state lines, and sometimes that can require federal 
intervention. At the same time, the EPA was never intended to 
be our nation's foremost environmental regulator. The States 
were to have regulatory primacy. That construct, a construct 
put in place by this body, has been turned upside down by the 
current Administration, and that's why I'm here today.
    I'd like to start by explaining to you why I so jealously 
guard Oklahoma's sovereign prerogative to regulate in a both 
sensible and sensitive way the regulation of the energy 
industry. We produce more wind energy than all but three States 
in the country with 17 percent of our electricity generated by 
wind while 7.4 percent of all the natural gas burned in this 
country and produced comes from Oklahoma.
    Indeed, we are a leading innovator in natural gas 
production through hydraulic fracturing and horizontal 
drilling, a technological innovation that has done more to 
reduce carbon emissions in this country than any other 
technological advancement in our time. In fact, just this 
month, the federal EIA announced that as of 2015 the power 
generation industry has reduced carbon dioxide emissions to 
1993 levels. And because coal still accounts for 34 percent of 
power generation, we will continue to see market-driven 
emissions reductions for years to come.
    I tell you all this to help you understand Oklahoma's 
objection to the Clean Power Plan. In all candor, of course we 
think the policy justifications for the plan are unpersuasive. 
We don't think that government regulators ought to be in the 
business of picking winners and losers in the energy sector. 
But whether unpersuasive or not, ultimately, you are the 
arbiter of this decision.
    And therein lies our objection to this plan. This body did 
not decide the plan. So the members of this committee who 
strongly support the Clean Power Plan, as a matter of policy I 
say to you this: Pass a bill. Let democracy decide whether a 
Clean Power Plan is right for America. But we didn't get 
democracy. We got a regulatory cram-down through the actions of 
the EPA.
    And to those who claim that the Clean Air Act unambiguously 
authorizes the EPA to enact through rule the Clean Power Plan I 
say to you this: If that were so, how do you explain the 
unprecedented step that the Chairman mentioned that the United 
States Supreme Court took recently to issue a stay in this 
proceeding? That stay was entered because five members of the 
Court thought that this plan, this Clean Power Plan rule was 
unlawful. And those five members were correct.
    Although this body has debated a number of bills through 
the years designed to achieve de-carbonization, it has never 
adopted any such legislation. Frustrated with Congress, the EPA 
now purports to have discovered sweeping authority in section 
111(d), an obscure provision in the Clean Air Act that has been 
used only five times in 45 years. According to the EPA, section 
111(d) authorizes it to use the States to impose on power 
plants emission reduction requirements that are premised not on 
pollution control measures at the regulated plants but on 
reducing or eliminating operations at those plans and shifting 
their electricity generation to competitors, something the EPA 
euphemistically calls ``generation shifting.''
    None of this can be reconciled with the words this body 
enacted in section 111. Section 111(d) authorizes the EPA to 
establish procedures under which the States set standards of 
performance for an existing source. Those standards must 
reflect the applicant--application of the best system of 
emission reduction to that source to a building structure, 
facility, or installation. In other words, the EPA may seek to 
reduce emissions only through measures that can be implemented 
by individuals--individual facilities, something called 
``inside the fence.'' Indeed, for 45 years this is the way the 
EPA has interpreted the provision.
    Finally, the rule violates the Constitution. Cooperative 
federalism programs must provide States with the meaningful 
opportunity to decline implementation, but the rule does not do 
so. States that decline to take legislative or regulatory 
action to ensure increased generation by the EPA's action face 
the threat of insufficient electricity to meet their demand. 
The rule is thus an act of commandeering that leaves the States 
no choice but to alter laws and programs governing electricity 
generation and delivery to accord with federal policy.
    If the EPA gets its way, section 111(d) will be transformed 
from a limited provision into the most powerful part of the 
Clean Air Act, making the EPA a central planner for every 
single industry that emits carbon dioxide. Congress did not 
intend, could not have imagined such a result when it passed 
the provision more than 45 years ago.
    Finally, there are some who wish to create a false 
dichotomy between those who are ``for'' clean power and those 
who are ``against'' clean power. I urge this committee to 
resist such rhetoric. We are all for clean power, and no one, 
no bureaucrat in D.C., no environmentalist in California has a 
stronger interest in clean air and clean water in Oklahoma than 
we do. That is our air that our children breathe and the water 
that our grandchildren will swim in, and that is why I 
jealously guard my State's prerogative to craft regulations 
that make sense for Oklahoma. And more importantly, that is why 
I vigorously advocate for the rule of law, for the democratic 
process, and for the respect that the Constitution's separation 
of powers between the Federal Government and the States.
    Mr. Chairman, I again appreciate the opportunity to discuss 
these issues with you, and I look forward to the questions at 
the end of our testimony.
    [The prepared statement of Mr. Pruitt follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    Chairman Bridenstine. I'd like to thank the Attorney 
General for his testimony.
    Ms. Gorod, you are now recognized for five minutes.

                TESTIMONY OF MS. BRIANNE GOROD,

                         CHIEF COUNSEL,

              CONSTITUTIONAL ACCOUNTABILITY CENTER

    Ms. Gorod. Thank you------
    Chairman Bridenstine. Could you turn on your mike?
    Ms. Gorod. I would like to thank the subcommittee for 
inviting me to assist its members and their colleagues in 
considering the legality and benefits of the Clean Power Plan.
    I am Chief Counsel of the Constitutional Accountability 
Center, a public interest law firm, think tank, and action 
center dedicated to the progressive promise of our 
Constitution, and I serve as counsel in the current legal 
challenge to the Clean Power Plan to over 200 current and 
former Members of Congress.
    I'm really pleased to be here today to discuss the Clean 
Power Plan because its implementation is of critical importance 
to the public health and welfare of our citizenry. The Clean 
Power Plan, once implemented, will produce critically important 
reductions in carbon dioxide emissions from what are by far the 
largest emitters in the United States: fossil fuel-fired power 
plants. These reductions are necessary because the emissions of 
carbon dioxide and other heat-trapping greenhouse gases are 
driving long-lasting changes to our climate that pose a 
tremendous threat to Americans' health and welfare.
    The benefits of the Clean Power Plan rule will be 
significant. EPA projects that the Clean Power Plan will help 
cut carbon pollution from the power sector by 30 percent from 
2005 levels and will also cut pollution at least to soot and to 
smog by over 25 percent in 2030. The Clean Power Plan will also 
lead to climate and health benefits worth an estimated $55-93 
billion in 2030, including avoiding 2,700 to 6,600 premature 
deaths and 140,000 to 150,000 asthma attacks in children.
    And the Clean Power Plan will achieve these environmental 
and public health benefits while also producing economic 
benefits, including new jobs and savings for U.S. households on 
their electricity bills.
    Despite these tremendous benefits of the Clean Power Plan, 
opponents of the rule have challenged the rule's legality 
arguing, among other things, that the EPA acted without lawful 
authority in promulgating the rule and that it 
unconstitutionally intrudes on State authority. These arguments 
are both wrong.
    First, the EPA clearly acted with lawful authority when it 
promulgated the rule. Opponents of the rule like to say that 
the Clean Power Plan is an example of executive overreach, 
President Obama acting through executive action because he 
couldn't get legislation passed through Congress. We of course 
heard this a moment ago from Attorney General Pruitt urging 
members of this subcommittee to pass a bill.
    Well, Congress did pass a bill. Congress passed the Clean 
Air Act, and in the Clean Air Act, Congress addressed the 
serious threat it recognized was posed by air pollution. And in 
the Clean Air Act, Congress did what it often does when it 
passes legislation. It set out broad goals and provided 
guidance about how to achieve those goals. Congress then gave 
an expert agency, in this case the EPA, the authority to fill 
in some of the details about how best to achieve those goals.
    Congress recognized that this approach was particularly 
necessary in the context of environmental issues where the 
issues are complicated and technical, and understanding of the 
precise nature of the problem is often evolving. Indeed, 
Congress specifically used broad language in certain provisions 
because it wanted the EPA to have the flexibility to address a 
wide variety of pollutants both known and unknown. Congress 
wanted the law to be comprehensive, and it wanted the law to be 
forward-looking.
    Significantly, the United States Supreme Court has 
previously recognized that Congress drafted the Clean Air Act 
to provide the flexibility to address new and evolving problems 
and that EPA is at the frontline of determining when and how--
of course consistent with the statutory guidance provided by 
Congress to address those problems.
    The Clean Power Plan is a lawful exercise of the authority 
Congress conferred on the EPA in the Clean Air Act because the 
Clean Power Plan is consistent with the text, with the 
structure, and with the history of the Clean Air Act. Most 
significantly, Congress enacted the 1970 amendments to the 
Clean Air Act to put in place a comprehensive regulatory regime 
that would govern all air pollutants that EPA determined were 
harmful to the public health and welfare.
    The provision on which EPA relied in promulgating the Clean 
Power Plan rule was a critical component of that comprehensive 
program because it directed EPA to regulate pollutants that are 
or may be harmful to the public health or welfare but that 
cannot be regulated under other specific programs established 
in the statute.
    If the courts were to conclude that the Clean Power Plan is 
unlawful, EPA would not be able to do what Congress directed it 
to do in the Clean Air Act, that is, comprehensively regulate 
harmful air pollutants. By promulgating the Clean Power Plan, 
EPA helps effectuate the robust clean air and public health 
policy that Congress established in the Clean Air Act.
    Second, the rule does not unlawfully intruded on State 
authority. In fact, the Clean Power Plan respects State 
authority by giving the States the opportunity to design an 
emissions reduction plan that makes sense for their citizens. 
If the States choose not to avail themselves of that 
opportunity, the EPA will directly regulate sources within 
those States. But the States themselves face no sanctions and 
the States themselves are not compelled to take any action to 
implement the resulting Federal standards. Tellingly, 18 States 
and the District of Columbia have intervened in the legal 
challenge to the Clean Power Plan to support the rule and its 
legality.
    In short, the Clean Power Plan is entirely lawful. If the 
courts were to conclude otherwise, it would critically 
undermine not only the Nation's fight against air pollution but 
the statutory scheme that Congress put in place when it enacted 
the Clean Air Act.
    So thank you again for giving me the opportunity to testify 
this morning, and I look forward to answering questions from 
the Committee.
    [The prepared statement of Ms. Gorod follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
  
    Chairman Bridenstine. Thank you, Ms. Gorod.
    I just want to give everybody a quick update. We're being 
told that votes are going to be called between 10:00 and 10:15. 
If votes are called, we want to give people an opportunity to 
ask questions of the witnesses, so we will come back after 
votes, and if it votes are called while Mr. McConnell is giving 
his testimony, we'll let him finish before we take a recess.
    So with that, Mr. McConnell, you are recognized for five 
minutes.

            TESTIMONY OF THE HON. CHARLES MCCONNELL,

                      EXECUTIVE DIRECTOR,

               ENERGY AND ENVIRONMENT INITIATIVE,

                        RICE UNIVERSITY

    Mr. McConnell. Thank you, Mr. Chairman and Members of the 
Committee, for the opportunity to testify today. I will discuss 
how this plan does not impact the environment and then discuss 
the large and disturbing impact on what we at your alma mater 
of Rice University, Mr. Chairman, call energy sustainability.
    The Clean Power Plan has been falsely sold as impactful 
environmental regulation when it's really an attempt by our 
primary federal environmental regulator to take over federal 
and state regulation of energy.
    Let me be very clear. I believe science and technology 
confirms that the climate is changing. I'm not in denial. I 
also believe science and technology confirms that CO<INF>2</INF> 
is a contributor or a forcing function for climate change. It's 
certainly not the exclusive forcing function, but it is a major 
contributor. These two facts, I believe, are scientifically and 
technically documented, and we have an obligation as a society 
to address those concerns.
    But with that said, what's also clear scientifically and 
technically is that EPA's plan will not significantly impact 
global emissions. If the definition of clean was simply the 
reduction of atmospheric CO<INF>2</INF> levels, and that's a 
naively narrow and incorrect perspective, by the way, but even 
if it were, then this Clean Power Plan is not the pursuit of 
clean.
    If you refer to the chart being projected and as has been 
referenced earlier and discussion today, I've previously 
testified that the Clean Power Plan reduces the amount of 
anthropogenic CO<INF>2</INF> globally by .2 percent, less than 
1 ppm. The global temperature rise would decrease by .01 degree 
Fahrenheit, and the resulting sea level rise reduction would be 
1/100 of an inch, which is about the equivalent of two human 
hairs. These are scientific and technical facts, and facts are 
stubborn things.
    For context, consider that all of the U.S. annual emissions 
in 2025 will be offset by 3 weeks of Chinese emissions, 3 
weeks. So it's dramatically uneventful. Is this impactful 
climate regulation? I think not. A committee dedicated to 
science and technology surely cannot and should not recognize 
this as effective climate legislation. I certainly won't sit 
here and recognize it as such.
    The other stubborn fact is that the U.S. energy landscape 
is made up of the makers and the takers. The makers such as 
your home State of Oklahoma, my home States of Ohio and 
Pennsylvania, and my adopted home of Texas, supply the vast 
majority of all forms of energy, electricity as well as 
petrochemicals and fuels, to the heartland of America, and it's 
the foundation of our U.S. competitiveness in manufacturing 
jobs. These makers also bear the disproportionate CPP 
implementation burden as seven States bear 40 percent of the 
actual CO<INF>2</INF> reduction.
    The takers, well, they have the good fortune to receive 
reliable, low-cost energy from those that make but bear little 
burden in terms of responsibility for this so-called societal 
plan. What I'll recognize is is that the Clean Power Plan will 
cause double-digit electricity price increases in over half of 
our States from not just the operating costs of generation but 
the hidden costs of this regulation in transmission investment 
and necessary reliability redundancy.
    Energy sustainability means energy that's accessible, 
secure, and affordable, affordable for our citizens and for 
global manufacturing, and it's environmentally responsible. And 
I submit to you that through transformative technology that 
focuses on the emissions of electricity production and not the 
fuel that every major source of energy we have today can be 
used in an environmentally responsible manner. That's a real 
all-of-the-above strategy. The Clean Power Plan is not. It's a 
waste of citizens' money with redundant capital charges and 
charges for electricity for no environmental benefit.
    You know, when the EPA was hatching the Clean Power Plan, I 
was witness to EPA asking my office at the Department of Energy 
in fossil energy to comment on an EPA-defined concept of 
resource adequacy, not reliability. And you might ask why. 
Well, it's inconvenient truth. For those wondering what 
resources adequacy means, it means there's sufficient 
theoretical capacity to generate power above predicted demand, 
but this is simply theoretical linguistic mumbo-jumbo offered 
by that agency in order to sound like a thoughtful analysis. 
It's theoretical, but it's not thoughtful. Reliability means 
reliability, and available power means available power, not 
theoretically available.
    As to the legality of the rule, I'm no lawyer but I am a 
citizen, and I believe the comments that have been made today 
about the legality are certainly worth thinking about and 
considering strongly. Science and technology requires real 
understanding and real facts. The CPP is not worthy of that as 
it doesn't meet those tests. I wish this discussion could be 
about relevant and impactful technology development for all 
electricity generation and not misguided regulatory policy, 
that's if we all really care about energy sustainability. Thank 
you.
    [The prepared statement of Mr. McConnell follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
  
    
    Chairman Bridenstine. I'd like to thank Mr. McConnell for 
his testimony.
    Members are reminded that committee rules limit questioning 
to five minutes. As we proceed here, just so everybody knows, 
we're working on passing an energy and water development 
appropriations bill. We had a Republican conference meeting 
this morning, and now we're going to have votes very shortly. 
So if we need to recess, we will. We want to give everybody an 
opportunity to ask questions, and it's possible--although it is 
a fly-out day, it's possible that we'd have more members of 
this subcommittee here after we have votes.
    So with that, I'll recognize myself for five minutes.
    Attorney General Pruitt, I wanted to ask a question 
regarding the Clean Power Plan. When you think about its 
implementation, we often hear about the immediate impact that 
the Clean Power Plan will have on ratepayers. We hear about 
those impacts. Can you share with us what are some of the 
secondary and tertiary impacts from the Clean Power Plan on the 
state of Oklahoma or other states and how that might affect us?
    Mr. Pruitt. Well, if I might, Mr. Chairman, I do think that 
the impact on consumers is significant. We have had experience 
in Oklahoma just with one rule, the regional haze portions of 
the Clean Air Act, that deal with aesthetics and not safety and 
health, that that one rule that was adopted in 2011 has 
generated over $1 billion of added cost to ratepayers in the 
State of Oklahoma, which equates to almost 15 to 20 percent 
increases in utility rates.
    I mean, what people don't talk about often with respect to 
this type of action by the EPA, it is the most regressive steps 
that can be taken. It's effectively a tax on those that can 
least afford it. And when you look at State look Oklahoma when 
we're already generating 17 percent of our electricity through 
wind, the Ranking Member indicated that for Oregon there's a 
goal, I think, if I heard correctly of 25 percent where--
electricity generation by the year 2025. We're already at 17 
percent in Oklahoma.
    And so when the EPA takes this step to force upon Oklahoma 
a 30 plus reduction in its carbon footprint, the question has 
to be asked: Where do we go and how do we impose or take the 
steps that are necessary to address that and how does it impact 
consumers?
    I mean, as far as the secondary impact, I think it's clear 
that it will affect manufacturing, I think it's clear that 
it'll affect economic developments, and that's something that's 
talked about quite a bit. But as far as real, objective, 
measurable cost, we have seen it impact consumers, the 
ratepayers in a very significant way, and that will continue.
    Chairman Bridenstine. As you're aware, Attorney General, 
there are a lot of businesses that are looking for places to 
locate, and when they believe that the state of Oklahoma is 
going to have their electricity prices increased by 20 percent, 
manufacturers start looking elsewhere. And this is going to be 
a tough challenge for us, for our state as we go forward, and I 
thank you for your leadership on these very important issues.
    I wanted to also ask, from a legal perspective the idea 
that the Supreme Court provided a stay and then the EPA turns 
around and says depending on what the outcome is, the date of 
implementation will not change. Have you ever seen this kind of 
activity before where a stay is issued and yet all the plans 
and processes move forward?
    Mr. Pruitt. No. Look, I mean, I think it's important, Mr. 
Chairman, to recognize the unprecedented step that took place 
here. I mean, the U.S. Supreme Court intervened to issue a stay 
against this rule. It's never occurred in history. They largely 
did it in my estimation because of what happened in the 
Michigan v. EPA case. The States brought a lawsuit against the 
EPA dealing with the Mercury rule because the EPA disregarded 
the cost-benefit analysis under that rule, and we won, but it 
took three years as a collection of States to the EPA 
accountable.
    Postscript the U.S. Supreme Court's decision, there were 
some braggadocious comments made by the EPA, and as such, I 
think the U.S. Supreme Court took a very aggressive and a right 
step to issue a stay in this proceeding.
    To your question, no, it's something we have not seen 
before. The case law, we think, clearly supports that there 
should be a suspension of the dates while the stay is in place, 
and that's something that will be argued at the appropriate 
time.
    Chairman Bridenstine. Excellent. Mr. McConnell, I read your 
testimony, and you talked in your testimony about the 
interagency process that happens within the Administration. Can 
you share with us your thoughts on how that interagency process 
went and the questions you were asked as the person in charge 
of fuels?
    Mr. McConnell. Well, the interagency collaboration is a--
kind of a convenient term, but in fact it doesn't happen in its 
honest form. Very often, the information that's being asked of 
it--by agencies such as fossil energy by the EPA will look at 
600-page documents and we get a weekend to look at it. The 
technology and the details in those documents often required a 
tremendous amount of scrutiny, and the time provided was 
ridiculously short.
    I guess my biggest concern is it's a disingenuous 
conversation that occurs when we talk about interagency 
collaboration. I surely didn't see it, and that wasn't just for 
this but it was for the MATS ruling and several other 
technologies. I often heard comments back from EPA at the very 
highest levels of we don't really let the technology issues 
bother us as we forward our policy activities. And that was 
very disturbing.
    Chairman Bridenstine. So I am out of time.
    I recognize the Ranking Member, Ms. Bonamici, for five 
minutes.
    Ms. Bonamici. Thank you, Mr. Chairman.
    Ms. Gorod, in February the Supreme Court granted a stay of 
implementation, as we've heard, pending the--a decision by the 
DC. Court of Appeals. They did not grant an injunction. So what 
does that mean? Does that stop work on this issue?
    Ms. Gorod. It doesn't at all. And I think that is exactly 
the right distinction to highlight. The Supreme Court issued a 
stay and not an injunction. Now, that may seem like technical 
legal jargon, but it's actually quite important from a legal 
perspective.
    Chief Justice John Roberts actually explained the 
distinction in a Supreme Court opinion a few years ago. He 
explained that a stay temporarily divests an order of 
enforceability, whereas an injunction directs the conduct of a 
party. So in other words what that means is an injunction is a 
binding restriction on the conduct of an agency. A stay is much 
less powerful focusing only on the enforceability of the rule.
    And what that means in this context is that the EPA can't 
enforce the regulatory requirements on the States while the 
stay is in effect, and the EPA has made very clear that it is 
not doing that. It's making------
    Ms. Bonamici. Thank you. And I'm going to try--I don't mean 
to interrupt, but I have several other questions. Thank you. 
That was a good clarification.
    Now, you've heard opponents of the Administration's efforts 
to address climate change suggest that even if the United 
States were to meet the goals of the Clean Power Plan it would 
have a minimal impact on power--on climate change. You've also 
heard that the Clean--and testified that the Clean Power Plan 
will reduce carbon emissions, and some have said there's no 
benefit from that. Do you agree? Can you talk about why it's 
important to have the Clean Power Plan?
    Ms. Gorod. It's absolutely important to have the Clean 
Power Plan because these carbon dioxide emissions the emissions 
of other heat-trapping greenhouse gases are producing real and 
meaningful effects on our climate that are having serious 
effects on weather events the health of our citizenry.
    It's worth noting that a number of States have filed in the 
lawsuit because they realize how important it is that we have 
these reductions in carbon dioxide emissions, and they've also 
made clear that contrary to what Attorney General Pruitt just 
said, making these reductions will benefit not only the public 
health of their citizens, it will benefit not only the 
environment of their citizens, but that states can make these 
reductions while also achieving real meaningful economic 
benefits.
    They said, for example, that in their first three years 
participating in a regional greenhouse gas initiative they 
realized $1.6 billion in net economic benefits. And it's also 
worth recognizing that the Clean Power Plan is one important 
respect in which the United States is showing its commitment to 
reducing global carbon dioxide emissions, and it's that sort of 
commitment, the setting of these ambitious goals, that 
encouraged 195 nations to sign onto the Paris agreement. An 
important part of making sure that these other countries follow 
through will be the United States following through on its own 
commitments.
    Ms. Bonamici. Thank you. And you heard the claims that EPA 
is overstepping its authority by developing the Clean Power 
Plan, so why are these claims inaccurate? And I wanted to know 
if you would please explain a little bit more of what you said 
in your written testimony as a textbook example of cooperative 
federalism. Can you please elaborate on that point and maybe 
give us some other examples of cooperative federalism we should 
consider when we're thinking about this issue.
    Ms. Gorod. Sure. So cooperative federalism is quite simple. 
The basic idea is the Federal Government and the States work 
together. The Federal Government will set goals or guidelines 
and the States have the option if they want of regulating in 
whatever way works best for their citizens consistent with 
local conditions in their states. If the States choose not to 
regulate, then the federal government will regulate directly 
without requiring the states to do anything.
    There is an environmental statute that dealt with surface 
mining and, the federal government gave the States the option 
of regulating and said if you don't want to regulate, the 
Federal Government will do it in your stead. There was a case 
involving a radioactive waste act that again gave a state the 
option of regulating the waste themselves or letting the 
Federal Government do it.
    And I think what's so important about those examples is 
that there was litigation, it went up to the Supreme Court, and 
the Supreme Court approved of those programs. It said there is 
no constitutional problem with the federal government giving 
the states the option to regulate in this way and then 
regulating if the States choose not to.
    The Clean Power Plan is not meaningfully different in any 
way from these prior examples of cooperative federalism, and I 
feel confident that the courts will recognize that when we 
actually have a merits resolution of the case.
    Ms. Bonamici. Thank you. And you mentioned the regional 
efforts. I assume that's RGGI that you're speaking about?
    Ms. Gorod. Yes.
    Ms. Bonamici. Could you explain a little bit about whether 
under the Clean Power Plan does that--is a regional approach 
permissible? And what are the States in RGGI and what benefits 
have they seen?
    Ms. Gorod. Yes, the states in RGGI are nine Northeast and 
mid-Atlantic States. They've seen real benefits both in terms 
of carbon dioxide reductions and also environmental and 
economic benefits. They've seen new jobs, they've seen reduced 
energy bills for their consumers.
    And I think a really important point to understand about 
the Clean Power Plan is it does give states considerable 
latitude to determine how best to regulate for their states. 
This is not the federal government imposing one particular 
approach on the states. Each State can look at its own 
conditions, look at what has been working in their state, what 
industry is already doing in that state, and then adopt the 
approach that will work best consistent with local conditions. 
And again, if the states choose not to regulate, the Federal 
Government will step in without imposing any requirement on the 
States themselves.
    Ms. Bonamici. And just to clarify, if the Federal 
Government steps in, they will be regulating the industries, 
not the States, correct?
    Ms. Gorod. They'll be regulating the industries, not the 
States, and the States can of course continue to regulate 
themselves. And it's worth noting that the federal government 
will not dictate to the States how they regulate, and so it'll 
be up to the industries to make sure that they can comply with 
both the federal and the state regulations.
    Ms. Bonamici. Thank you very much. My time is expired. I 
yield back. Thank you, Mr. Chairman.
    Chairman Bridenstine. I'd like to thank the gentlelady from 
Oregon, Ms. Bonamici.
    I would remind everybody that it was before this committee 
that Ms. McCarthy, the EPA Administrator, contradicted the 
testimony of Ms. Gorod when she was asked ``Do you consider 1/
100 of a degree to be enormously beneficial?'' This was from 
Chairman Lamar Smith who was outlining the costs of the Clean 
Power Plan and the benefits. Of course, the EPA has their own 
models. And he asked her, do you consider 1/100 of a degree to 
be enormously beneficial considering the cost? And her response 
was ``The value of this rule is not measured that way. It's 
measured in showing strong domestic action, which can actually 
trigger global action.''
    I'd like to recognize the gentleman from Texas, Mr. Babin.
    Mr. Babin. Thank you, Mr. Chairman. I appreciate it. Thank 
you witnesses for being here this morning.
    I have several questions for Mr. McConnell, and by the way, 
welcome to Texas. I know you're at Rice University.
    Mr. McConnell. Twenty-five years, sir------
    Mr. Babin. That's right.
    Mr. McConnell. --so it's home now.
    Mr. Babin. Well, I went to school at the University of 
Texas dental branch right across the street over in the medical 
center.
    And you also spent 31 years at Praxair, I see?
    Mr. McConnell. Yes, sir.
    Mr. Babin. It has a strong presence in my district down in 
southeast Houston.
    You're a frequent defender of the need for carbon capture 
utilization and storage or CCUS technology. There are a lot of 
folks on the left who aren't interested in investments in 
research and development for Fossil Energy since that they'd 
rather ``leave it in the ground.'' At the same time, we hear 
from folks on our side of the aisle who are concerned that CCUS 
technology is being promoted to reinforce this Administration's 
climate change agenda.
    I would like to ask if you could talk about why you believe 
fossil energy research and development, specifically the CCUS 
technology, is a necessary investment to maintain affordable 
electricity for all Americans.
    Mr. McConnell. Thank you.
    Mr. Babin. Yes, sir.
    Mr. McConnell. That's--I love the question because I've 
spent the last ten years of my life talking about CCUS every 
time I get a chance. I will tell you that I don't believe it's 
political at all. I believe it's incredibly important to the 
future in terms of advancing the ball in climate change issues 
because I believe in that strongly. And the IPC has recently 
come out with a study in Paris that specifically said the 
greatest challenge for the next 50 years in the world is the 
worldwide deployment of CCUS technology. Forget about 
everything else. If we don't do that, we'll never meet our 
climate targets.
    Well, that's one side of the conversation. That's the 
climate side. There's a much more important in many ways issue 
around energy security. If you capture that CO<INF>2</INF> and 
utilize it for enhanced oil recovery, we can produce energy in 
this country from resources that we have access to, we can 
produce our own resources here, using an environmentally 
responsible technology, and reduce the amount of imported oil 
that we'd have to have as a country, strengthen jobs, 
manufacturing, create opportunities for us to continue to use 
not only coal but natural gas, which also generates 
CO<INF>2</INF>, and all other fossil fuels. It's the perfect 
storm for a technology that does both, improve the climate as 
well as make our economy stronger.
    Mr. Babin. Good answer. Thank you very much, Mr. McConnell. 
One more question. The Energy Subcommittee here held a hearing 
earlier this month on Department of Energy fossil energy 
programs, and I wanted to ask if you think that the Department 
of Energy is appropriately prioritizing the kind of early-stage 
technology R&D that is necessary to allow the private sector to 
scale up CCUS technology?
    Mr. McConnell. The Department of Energy in fossils 
specifically is dealing with table scraps in comparison to 
everything else that the Department of Energy is working on. 
The money that goes to renewables, to solar, to wind, to all 
the other forms of energy, which are nowhere near as impactful 
in our country as fossil energy, is enormously greater. And so 
the amount of money that fossil has to work with is frankly 
table scraps. And the opportunity for us to take this forward 
not just for our country but, sir, I would argue that for the 
global impact of us as a technology leader in the world, it's 
our obligation to advance this technology so countries like 
China and India where the real climate story will be written 
over the next 50 years, they need our technology. They don't 
need our ideology.
    Mr. Babin. Absolutely. Thank you, Mr. Chairman, and I yield 
back the balance of my time.
    Chairman Bridenstine. The gentleman yields back.
    I now recognize the gentleman from California, Mr. Takano, 
for five minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    You know, I was very surprised to learn that the majority 
decided to send letters to 17 State Attorneys General, 
including my Attorney General in California, alleging that the 
office of the highest law enforcement officer in each of these 
States were colluding with environmental organizations. I 
would've hoped that the majority would want to conduct 
investigations based on facts and not simply engage in 
political theater.
    And as it turns out, they only needed to look at their own 
backyard to find facts that may support such an investigation. 
In 2014, the New York Times published a story with supporting 
documentation revealing the working relationship between 
Oklahoma Attorney General Scott Pruitt and the Oklahoma-based 
oil-and-gas company Devon Energy.
    Several email chains between Mr. Pruitt's office and Devon 
Energy demonstrate that on at least two occasions letters were 
provided to his office by the oil and gas company and with very 
minimal edits. They were sent out on Oklahoma Attorney General 
letterhead with his signature.
    These are not allegations. These are facts. The 
documentation is clear, and the ethical issues this presents 
are disturbing.
    Without objection, Mr. Chairman, I would ask that this 
article and relevant email chain be entered into the record.
    Chairman Bridenstine. Without objection, so ordered.
    [The information appears in Appendix II]
    Mr. Takano. Thank you. Now, while I see Mr. Pruitt sitting 
at the witness table, I highly doubt my colleagues invited him 
here today to provide answers regarding these actions. I think 
it is unfortunate that the majority continues to chase 
headlines instead of chasing the truth. And that is why earlier 
this month I sent a letter to Mr. Pruitt's office requesting 
documents pursuant to the Oklahoma Open Records Act to shed 
some light on this relationship.
    As I said in my letter, ``The Members of this Committee, 
the citizens of Oklahoma, and the American people have a right 
to know to what extent your office has been passing off the 
work product of Devon Energy or potentially other organizations 
as the views of the Office of the Attorney General of 
Oklahoma.''
    Now, I don't intend to ask you for a response today, Mr. 
Pruitt, but I would like a commitment from you that your office 
will cooperate and honor my Open Records request. Can I have a 
simple yes or no from you before I proceed with my questions?
    Mr. Pruitt. Congressman, your request is being processed 
and will be responded to appropriately.
    Mr. Takano. So that's a yes, you do pledge to cooperate 
with our requests?
    Mr. Pruitt. We are in fact processing the request.
    Mr. Takano. All right. Thank you very much.
    Without objection, Mr. Chairman, I would ask that my letter 
to Mr. Pruitt be entered into the record.
    Chairman Bridenstine. Without objection, so ordered.
    [The information appears in Appendix II]
    Mr. Takano. And where is that thing I had in here? I wanted 
to--oh, here it is.
    Now, Ms. Gorod--I don't believe Ms. Gorod did contradict 
Administrator McCarthy. In fact, her response to the Chairman 
was perfectly accurate. U.S. actions alone and Clean--and the 
Clean Power Plan alone are not enough. However, it is 
important--it is an important first step, and both these 
actions will inspire global action. Indeed, it already has, as 
Ms. Gorod alluded to.
    Now, Ms. Gorod, I know you've gone over this a little bit 
before, but I want to ask you the question again. Recent 
Supreme Court rulings say--the recent Supreme Court ruling to 
stay the implementation of the Clean Power Plan appears on its 
face to give merit to the claims made by Mr. Pruitt and others. 
As I said before, I'm not a lawyer so I was hoping you could 
provide some clarity as to the impact of this stay. What are 
the implications of this stay, and how is it different than an 
injunction?
    Ms. Gorod. Sure. So, first I should say that I don't think 
it is right to conclude anything about the merits, and what 
will ultimately be decided on the merits from the fact that the 
Supreme Court issued the stay. And let me be clear, I think the 
Supreme Court was wrong to do it, but it was a procedural 
ruling and it was not the result of having reviewed a lower 
court decision. It was not the result of full briefing on the 
merits. And I think once courts review all of the arguments 
made by all sides, they will uphold the Clean Power Plan and 
recognize its legality.
    In the meantime, there is--because this was just a stay and 
not an injunction--ample precedent for the EPA to be doing 
exactly what it is doing now, which is continuing to work on 
matters related to the rule without imposing any regulatory 
requirements on the State. Indeed, in recent years EPA has 
taken similar actions under both Democratic and Republican 
Presidents.
    Significantly, it's worth noting that 14 States sent the 
EPA a letter after the stay went into effect asking the EPA to 
continue to provide the States guidance.
    It's also worth noting that nothing in the court's order 
requires a delay of the plan's full implementation timeline. Of 
course, many of the dates set out in the Clean Power Plan occur 
well after the litigation will presumably be resolved, and it's 
entirely possible that those dates will remain the same. That's 
a decision that'll be made once there's a ruling on the merits.
    Given that there's uncertainty about the timeline going 
forward, it makes all the more sense for the EPA to continue to 
work on the plan in the meantime, and that's exactly what it's 
doing.
    Mr. Takano. Mr. Chairman, my time is expired.
    Chairman Bridenstine. I'd like to thank the gentleman.
    We are going to be calling votes very shortly. Everybody 
has had an opportunity to ask questions, so with that, we're 
going to close this hearing.
    I just want to say one thing before we close, and that is 
that the majority, my side of the aisle is interested in the 
legal issues surrounding the actions of the ``Green 2O'' such 
as protecting the First Amendment rights of all citizens to 
engage in robust debate about the science. The free exchange of 
scientific thought should be something that members on both 
sides of the aisle support. I am troubled that the minority has 
chosen to mischaracterize the Committee's investigation, which 
is to determine how outside groups convinced States to stifle 
scientific discourse.
    With that, I want to thank the witnesses for being here. I 
know all of you have been busy and------
    Mr. Takano. Would the gentleman yield?
    Chairman Bridenstine. I would yield.
    Mr. Takano. I think it's important to understand outside 
groups ``colluding'' with Attorneys General or any elected 
official, that there's a false equivalency being presented here 
that elected officials dealing with environmental groups who 
generally work on behalf of consumers and champions of the 
environment versus these elected officials dealing with big 
corporations. I think there's a false equivalency here, and I 
think the American people understand that.
    And to be going after the communication between 
environmentalists--environmental groups and elected officials 
is one thing, but, you know, revealing that cooperation and 
collusion between Attorneys General and big corporations, oil 
companies, is another.
    Chairman Bridenstine. And I don't disagree with your 
assessment that we need open and free dialogue and we need 
certainly transparency, but I would also argue that in my state 
of Oklahoma we have a lot of really great folks that work in 
the energy industry, and they should be commended for what they 
have done for this country.
    With that--and I'll--we need to adjourn because we're going 
to have votes here very shortly--I would like to thank the 
witnesses for their very valuable testimony and the members for 
their questions. The record will remain open for two weeks for 
additional comments and written questions from members.
    This hearing is adjourned. Thank you.
    [Whereupon, at 10:31 a.m., the Subcommittee was adjourned.]

                              Appendix II

                              ----------                              


                   Additional Material for the Record


            Statement submitted by Committee Ranking Member
                         Eddie Bernice Johnson



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Documents submitted by Subcommittee Chairmain Jim Bridenstine
     
     
     
     
     
     
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
     
          Documents submitted by Representative Mark Takano
          
          
          
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
          
   

                                 [all]
</pre></body></html>
